                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                     The Inspector General
                                                     Washington. D.C. 20230




June 28. 20 I0

The Honorable Alan Mollohan
The Honorable Frank Wolf
Committee on Appropriations
Subcommittee on Commerce. Justice.
       Science and Related Agencies
U.S. House of Representatives

Dear Chairman and Ranking Member:

The FY 2008 Supplemental Appropriations bill (P.L. 110-252) required the Commerce Office of
Inspector General (OIG) to oversee the 2010 Decennial Census and provide quarterly status
reports 10 Congress once the Census Bureau issued its baseline status report. As major field
operations wind down for the decennial. we wanted to summarize Jor the Subcommittee. our
oversight of the decennial to date.

As described in detail below. our Census oversight tean1 produced or contributed to 22 products
in the past two years-including seven quarterly reports and related products to Congress.
testimony at five congressional hearings. two responses to congressional requests. three "flash"
reports on decennial census field operations issues. and five reports that described general
management challenges and findings. In addition. the OIG is scheduled for two Congressional
hearings on the 2010 Decennial Census in the month of July and will be issuing several
additional reports through the end of this calendar year.

We have been reporting on decennial planning over the past decade. However. based on the
support of Congress. we were able to increase and accelerate our work considerably in the past
year. culminating in extensive deployments of more than 100 OIG statT members to Census
offices nationwide to oversee multiple decennial Census lield operations. observe management
practices. and review information technology systems. OIG stan- established a detailed plan to
monitor and systematically collect field observations. We successfully collected data to help
determine if activities were being conducted in accordance with Census procedures (for example.
whether the Census questionnaire was being administered properly and whether map and address
list updating was being completed correctly): to examine local Census office practices: and to
conduct a continuous. national-level re\'iew of decennial census finances. schedule. and risk
assessment and mitigation activities.

OIG's 2010 Decennial Census oversight will also benefit planning for the 2020 Decennial
Census. Not only did our reports. testimony. and other products serve to help keep the Census
Bureau on track during the current decennial. mueh of the work also sought to provide key
lessons learned and recommendations to help the bureau plan for the next decennial in 2020. We
intend to continue our oversight through the end of the year. issuing a final capping repon on the
2010 Decennial Census operation early next year.

Quarterly Reporting to Congress
The Supplemental Appropriations Act of 2008 included an explanatory statement that required
the Census Bureau to submit to the Senate and House Comminees on Appropriations a detailed
plan and time line of decennial milestones and expenditures. and a quantitative assessment of
associated program risks. It funher required OIG to provide quarterly repons on the bureau's
progress against this plan. The following are highlights from these repons:

   •	 Augus/l009: Limitations in the Census Bureau's ability to oversee the systems and
      information necessary lor tracking its schedule. cost. and risk management activities
      during the 20 I0 Decennial Census. The OIG subsequently issued a separate repon to
      Census with recommendations to help improve the program management of both the
      current and 2020 censuses.
   •	 December 1009: Cost overruns lor the address canvassing operation. revisions to cost
      assumptions for the nonresponse follow-up (NRFU) operation. contingency funds for FY
      20 10 operations. and spending of American Recovery and Reinvestment Act funds for
      the census: and an update on program-level risks.
   •	 February 1010: Development and testing of the bureau's paper-based operations control
      system (PBOCS). an update of OIG field observations. analyses of cost overruns for
      address canvassing. an update on NRFU budgeting. and planned spending of Recovery
      Act funds. The OIG subsequently issued a separate repon to Census with
      recommendations for addressing the PBOCS risks and improving cost containment of
      subsequent operations by developing and implementing effective internal controls over
      wage. travel. and training costs.
   •	   May 1010: The status of PBOCS and its relationship to the success of several decennial
        operations. especially NRFU: the status of the 20 I0 Census budget and spending of
        Recovery Act funds: and an update on program-level risks. including the development of
        contingency plans and tests of physical security at key Census facilities. The OIG
        subsequently issued a separate repon to Census with recommendations for. among other
        things. ensuring the quality of the clerical workarounds implemented to compensate for
        PBOCS shonfalls. improving the transparency of financial reponing. bener informing the
        public of decennial enumeration methods. and developing an improved process to
        estimate the work load for various field operations.

Congressional Testimony
The OIG also delivered testimony before Senate and House comminee hearings in suppon of the
committees' oversight of the 20 I0 Decennial Census:

   •	   The 1010 Census: An Assessmen/ ,,(rhe ('ensus Bureau's Preparedness. Associate
        Deputy Inspector General. House Comminee on Oversight and Government Reform.
        March 25. 20 10
   •	   The 20 I 0 ('emus: ujJdate ofSchedule. (·ost. Risk Management. and Communications
        Activities. Inspector General. Senate Committee on Homeland Security and
        Governmental Affairs. February ~3. ~O 10
   •	 Census 2010: Importance v.f the .\laster Address File and Steps Census Can Take to
      Strengthen Its Quality. Inspector General. House Committee on Oversight and
      Government Refornl. October 11. ~009
   •	   The 2010 ('emus: Update orAey Del'el/nial Operations. Inspector General. Senate
        Comminee on Homeland Security and Goyernmental Affairs. October 7. 2009
   •	   The 2010 Census lind Inte!<rated CommuniclItions Campaign. Principal Assistant

        Inspector General for Audit and Evaluation. House Committee on Oversight and

        Government Reform. September 11. 1009


Congressional Meetings and Responses to Requests
In addition to reporting and testifying before Congress. executives and staff of the Commerce
OIG have met with Members of Congress and congressional statT formally on 16 separate
occasions. OIG staff met with congressional stalT numerous times on an informal basis in
response to speci fie requests to update and provide oversight summaries related to the 20 I0
Decennial Census and efforts to improve the 1020 decennial Census. OIG staff have provided
input on legislation in response to congressional requests to identify areas of improvement to the
2020 Decennial Census and briefed. attended meetings. and participated in teleconferences with
congressional staff regarding the status of current decennial operations.

Summary
The decennial census is a once-a-decadc e\'ent that carries a decade-long cumulative impact on
Congressional representation and federal agency service. Oversight of the decennial census and
helping ensure that it is carried out properly is. for many on the OIG's staff. a once-in-a-career
opportunity to make an important difference. By promptly alerting Census officials-and the
appropriate Senate and House oversight committees~f problems in need of immediate
attention. OIG made an immediate and measurable ditTerence in the 2010 Decennial Census. In
addition. OIG's extensive monitoring. analysis. and reporting provided both Census Bureau and
congressional decision-makers with critical information needed to plan for the next decennial in
2020. We plan to issue our next quarterly report in October. 2010 and. as noted above. a capping
report in early 20 I 1.

On behalf of the OIG stalr. we appreciate the opportunity to serve the American public on such
an important undertaking. and we appreciate your support and that of the Subcommittee.

Sincerely.


'i'~~ ~ '----'
Todd J. Zinser


cc: Secretary of Commerce
